Disclosure
MasterCard Secured
INTEREST RATES AND INTEREST CHARGES

1.99% Introductory APR for the first 6 months from the date the card is issued. After
that, your APR will be 14.70%. This APR will vary with the market based on the U.S.

Annual Percentage Rate (APR) for Purchases

Prime Rate (“Prime Rate”).1
APR for Balance Transfers of Other Financial
Institutions

14.70%, this APR will vary with the market based on the Prime Rate. 1
22.74%, this APR will vary with the market based on the Prime Rate.

APR for Cash Advances

29.99%
This APR will apply if you make a late payment.
Penalty Rate and when it Applies

2

How Long Will the Penalty APR Apply? If your APRs are increased for this reason, the
Penalty Rate will remain in effect until the account becomes current and the Bank receives
6 consecutive required minimum payments on or before their due dates.

Paying Interest

Your due date is at least 21 days after the close of each billing cycle. We will not charge you
interest on new Purchases if you pay your entire balance by the due date of each month.
However, we will begin charging interest on cash advances and balance transfers from the
disbursement date of these transactions.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.50.

For Credit Card Tips from the Consumer Financial
Protection Bureau (“CFPB”)

To learn more about factors to consider when applying for or using a credit card, visit the
website of the CFPB at https://www.consumerfinance.gov/learnmore

FEES
None
$10 Additional Card Issuance Fee Per Card (If applicable)

Annual Fees
Transactional Fees
•
Cash Advances & Balance Transfers
•
Foreign Transactions
Penalty Fees
•
Late Payment Fee
•
Returned Check Fee

2% of the amount of each transaction (minimum $2.00; maximum $10.00)
1% of each transaction in U.S. dollars
Up to $35.00
$10.00

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new purchases of
goods and services)”.
Loss of introductory APR: We may end your introductory APR and apply the Penalty APR if you make a late payment.
1

Prime Rate: The abovementioned variable rates are accurate based on a 3.25% Prime Rate. We added a margin of
11.45% to the Prime Rate in order to determine Purchase of Goods/Services and Balances Transfers APRs.
2

Late payment means when a minimum payment is not received within a period of 60 consecutive days from its payment
due date.
Disclosed information about applicable rates, APRs and charges of the MasterCard Secured is accurate as of March
2020. This information may have changed. For updated information in connection with this card you can write us at P.O.
Box 195115, San Juan, P.R., 00919-5115 or call us at 1.800.981.5554.
OTHER IMPORTANT TERMS OF THIS ACCOUNT

•
•
•

You are applying for a secured credit card, a product designed to help establish or rebuild credit
For applicants who qualify, more favorable terms and pricing may be available through our unsecured products
A minimum refundable security deposit of $500 (maximum of $5,000) is required to open this account. Your maximum
credit limit will be determined, among other factors, by the amount of the security deposit you provide, your income, your
ability to pay this the line of credit and Oriental’s Credit Policy.

Oriental Bank is Member FDIC

